HHS/OIG, Audit -"Review of Medicaid Disproportionate Share Hospital Payments Made by Virginias Department of Medical Assistance Services to the University of Virginia Medical Center for the Fiscal Years Ending June 30, 1997 and June 30, 1998,"(A-03-01-00226)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Disproportionate Share Hospital Payments Made by
Virginias Department of Medical Assistance Services to the University of Virginia Medical Center for the Fiscal Years
Ending June 30, 1997 and June 30, 1998," (A-03-01-00226)
May 5, 2003
Complete
Text of Report is available in PDF format (3.14 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the University of Virginia Medical Center overstated its uncompensated care costs (UCC)
in state fiscal years 1997 and 1998 by including unallowable costs consisting of physician practice plan costs incurred
by a related entity. As a result, disproportionate share hospital (DSH) payments exceeded UCC costs by $9.2 million ($4.8
million federal share).  We recommended a financial adjustment for the $4.8 million and procedural corrections.  State
officials generally disagreed with our findings and recommendations.